           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


        SINGLE AUDIT OF THE
   COMMONWEATH OF PUERTO RICO,
     DEPARTMENT OF THE FAMILY
     FOR THE FISCAL YEAR ENDED
            JUNE 30, 1999

    January 2002   A-77-02-00007




 AUDIT REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

  m Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
  m Promote economy, effectiveness, and efficiency within the agency.
  m Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
  m Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
  m Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

  m Independence to determine what reviews to perform.
  m Access to all information necessary for the reviews.
  m Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                                             -J-\.s£cu
                                                            :>Ci~~
                                                            W/fJs~'\1
                                                            \     1/11/11
                                                                       ~~
                                                                "lvlS~~

                                         SOCIAL                  SECURITY

                                         Office     of the Inspector        General
MEMORANDUM
Date:
            JAN   3 O 2002                                                                   Refer To:

        Dan Sweeney
        Acting Director
        Management      Analysis   and Audit      Program       Support     Staff

From:
        Assistant Inspector General
         for Audit

Subject:Single Audit of the Commonwealth            of Puerto Rico, Department         of the Family for the
        Fiscal Year Ended June 30, 1999 (A-77-02-00007)

        This report presents the Social Security Administration's (SSA) portion of the single
        audit of the Commonwealth     of Puerto Rico, Department of the Family (DOF), for the
        Fiscal Year ended June 30, 1999. Deloitte & Touche LLP, Certified Public Accountants
        (CPA) performed the audit and its reports on compliance and internal controls are
        attached (see Appendix A). Results of the desk review conducted by the Department of
        Health and Human Services (HHS) have not been received. We will notify you when
        the results are received if HHS determines the audit did not meet Federal requirements.

        The Puerto Rico Disability Determination  Services (DDS) performs disability
        determinations  under SSA's Disability Insurance (Dl) and Supplemental   Security
        Income (SSI) programs in accordance with Federal regulations.    The DDS is reimbursed
        for 100 percent of allowable costs. The Puerto Rico DOF is the DDS's parent agency.

        For single audit purposes, the Office of Management and Budget assigns Federal
        programs a Catalog of Federal Domestic Assistance (CFDA) number. SSA's Dl and
        SSI programs are identified by CFDA number 96. SSA is responsible for resolving
        single audit findings reported under this CFDA number.

        The single audit reported     the following     findings       (See Appendix   B):

             Documentation to support expenditures was not available to test the base used for
             indirect costs. The corrective action plan indicates that DOF disagrees with the
             finding and that documentation was available but not requested by the auditors.

        .    Fiscal evaluations were not performed to ensure that disbursements      of $172,354
             were allowable.    The corrective action plan indicates that DOF disagrees with the
             finding stating that the Department's   manual does not require a formal fiscal
             evaluation   for each purchase.
Page 2 - Dan Sweeney


·   DDS expenditures of $4,214,001 were not supported by documentation. The
    corrective action plan indicates that DOF disagrees with the finding citing that all
    documents were available except for one job plan which was subsequently provided
    to the auditors.

·   The Financial Status Reports claimed expenditures of $899,764 greater than
    amounts recorded in the general ledger. The corrective action plan indicates that
    reconciliations were not up to date and coordination between Program and
    Department officials will be scheduled to resolve this issue.

We recommend that SSA:

1. Ensure the DDS has a system in place to retain accounting records and supporting
   documentation for the time period required by applicable requirements and
   regulations.

2. Ensure the DDS has procedures in place for performing fiscal evaluations including
   comparing expenditures with budget amounts prior to making disbursements.

3. Determine whether expenditures of $172,354 not properly reviewed prior to
   disbursement are allowable and recover that portion which is not allowable.

4. Determine whether the $4,214,001 in undocumented expenditures was allowable
   and recover that portion which is not allowable.

5. Ensure that procedures are in place to reconcile the Financial Status Reports to the
   general ledger.

6. Determine whether the Financial Status Report incorrectly overstated DDS
   expenditures by $899,764 and recover any unallowable costs.

The single audit also disclosed the following findings that may impact DDS operations,
although they were not specifically identified to SSA. Some of these findings were
reported for several DOF programs indicating pervasive problems within DOF. If the
finding was reported in more than one DOF program, we identify the number of times
the finding was reported in parenthesis at the end of each finding. I am bringing these
matters to your attention as they represent potentially serious service delivery and
financial control problems for the Agency (see Appendix C).

·   Financial statements were not prepared in conformity with Generally Accepted
    Accounting Principles due to a lack of policies, procedures, and financial reporting
    practices. Therefore, management did not have accurate and complete financial
    information on a timely basis to carry out other duties.
Page 3 – Dan Sweeney


·   Procedures were not in place to ensure financial reports are completed and
    submitted timely (3).

·   Supporting documentation and accounting records were not retained for
    expenditures charged to Federal funds (19).

·   DOF did not verify if parties were debarred or suspended when contracting for
    services or procuring goods with Federal funds.

·   A system was not in place to prepare and implement corrective action plans and
    clear audit findings in a timely fashion.

·   Payroll disbursements were not properly recorded.

·   Property and equipment management procedures were not adequate (4).

·   DOF did not follow required bidding procedures for procurement and contracting
    activities (2).

·   The Financial Status Report did not agree with the general ledger (2).

·   DOF expended Federal funds for costs that benefited other programs (6).

·   Periodic reviews of cash management transactions for compliance with the Cash
    Management Improvement Act (CMIA) agreement were not conducted.

·   Fiscal evaluations were not performed to ensure funds were expended for allowable
    activities (2).

·   Evidence to support the drawdown of Federal funds could not be located.
Page 4 -Dan   Sweeney


Please send copies of the final Audit Clearance Document to Mark Bail.ey in.  -.
Kansas City and Paul Wood in Baltimore. If you have questions contact Mark Bailey
at (816) 936-5591.




Attachments
Appendix A
Page 1 of 8
Appendix A
Page 2 of 8
Appendix A
Page 3 of 8
Appendix A
Page 4 of 8
Appendix A
Page 5 of 8
Appendix A
Page 6 of 8
Appendix A
Page 7 of 8
Appendix A
Page 8 of 8
Appendix B
Page 1 of 9
Appendix B
Page 2 of 9
Appendix B
Page 3 of 9
Appendix B
Page 4 of 9
Appendix B
Page 5 of 9
Appendix B
Page 6 of 9
Appendix B
Page 7 of 9
Appendix B
Page 8 of 9
Appendix B
Page 9 of 9
 Appendix C
Page 1 of 19
 Appendix C
Page 2 of 19
 Appendix C
Page 3 of 19
 Appendix C
Page 4 of 19
 Appendix C
Page 5 of 19
 Appendix C
Page 6 of 19
 Appendix C
Page 7 of 19
 Appendix C
Page 8 of 19
 Appendix C
Page 9 of 19
  Appendix C
Page 10 of 19
  Appendix C
Page 11 of 19
  Appendix C
Page 12 of 19
  Appendix C
Page 13 of 19
  Appendix C
Page 14 of 19
  Appendix C
Page 15 of 19
  Appendix C
Page 16 of 19
  Appendix C
Page 17 of 19
  Appendix C
Page 18 of 19
  Appendix C
Page 19 of 19
                   Overview of the Office of the Inspector General
                                         Office of Audit

The Office of Audit (OA) conducts comprehensive financial and performance audits of the
Social Security Administration’s (SSA) programs and makes recommendations to ensure that
program objectives are achieved effectively and efficiently. Financial audits, required by the
Chief Financial Officers Act of 1990, assess whether SSA’s financial statements fairly present
the Agency’s financial position, results of operations, and cash flow. Performance audits review
the economy, efficiency, and effectiveness of SSA’s programs. OA also conducts short-term
management and program evaluations focused on issues of concern to SSA, Congress, and the
general public. Evaluations often focus on identifying and recommending ways to prevent and
minimize program fraud and inefficiency.


                                Office of Executive Operations

The Office of Executive Operations (OEO) provides four functions for the Office of the
Inspector General (OIG) – administrative support, strategic planning, quality assurance, and
public affairs. OEO supports the OIG components by providing information resources
management; systems security; and the coordination of budget, procurement,
telecommunications, facilities and equipment, and human resources. In addition, this Office
coordinates and is responsible for the OIG’s strategic planning function and the development and
implementation of performance measures required by the Government Performance and Results
Act. The quality assurance division performs internal reviews to ensure that OIG offices
nationwide hold themselves to the same rigorous standards that we expect from the Agency.
This division also conducts employee investigations within OIG. The public affairs team
communicates OIG’s planned and current activities and the results to the Commissioner and
Congress, as well as other entities.


                                     Office of Investigations

The Office of Investigations (OI) conducts and coordinates investigative activity related to fraud,
waste, abuse, and mismanagement of SSA programs and operations. This includes wrongdoing
by applicants, beneficiaries, contractors, physicians, interpreters, representative payees, third
parties, and by SSA employees in the performance of their duties. OI also conducts joint
investigations with other Federal, State, and local law enforcement agencies.


                               Counsel to the Inspector General

The Counsel to the Inspector General provides legal advice and counsel to the Inspector General
on various matters, including: 1) statutes, regulations, legislation, and policy directives
governing the administration of SSA’s programs; 2) investigative procedures and techniques;
and 3) legal implications and conclusions to be drawn from audit and investigative material
produced by the OIG. The Counsel’s office also administers the civil monetary penalty program.
